Pension Benefit Guaranty Corporation
     Office of Inspector General
  Agreed-Upon Procedures Report




     ZIMMERMAN ASSOCIATES, INC.

            Agreed-Upon Procedures to Verify
             Contract Personnel Qualifications
              Contract PBGC01-CT-04-0727
  For Fiscal Years ended September 30, 2006 and 2007




             September 25, 2009
                                           AUD-2009-07 / CA-08-53
                 Pension Benefit Guaranty Corporation
                                               Office of Inspector General
                                1200 K Street, N.W., Washington, D.C. 20005-4026




                                                             September 25, 2009

                               MEMORANDUM

To:           Arthur S. Block,
              Acting Director
              Procurement Department

From:         Joseph A. Marchowsky
              Assistant Inspector General for Audit

Subject:      Final Report: Agreed-Upon Procedures to Verify Contract
              Personnel Qualifications
              Zimmerman Associates, Inc. Contract PBGC01-CT-04-0727
              (AUD-2009-07 /CA-08-53)


This memorandum transmits a report regarding the experience of employees
assigned to the PBGC contract No. PBGC01-CT-04-0727. We hired the CPA
firm of Ollie Green and Company (Ollie Green) to determine if Zimmerman
Associates processes were adequate to ensure that personnel assigned to the
contract met PBGC specifications.

Ollie Green found that Zimmerman Associates did not always verify that
assigned personnel met experience requirements specified in the contract
because there is no contractual requirement to verify experience. Their
recommendation was that PBGC require Zimmerman Associates to implement
controls and procedures to ensure that required experience is verified and
documented in personnel files for all employees prior to assigning personnel to
PBGC contracts (OIG Recommendation No. PD-132).

PBGC's response has been incorporated in its entirety as an appendix to the
report. PBGC agreed with the report's single recommendation. We agree with
PBGC's proposed corrective action for the report’s recommendation.

If you have any questions, please contact me at (202) 326-4000 extension 3928.

Attachment

cc: 	   Stephen Barber, Chief Management Officer
        Richard Macy, Chief Operating Officer
        Marty Boehm, Director, Contracts and Controls Review Department
                                             Independent Accountant’s Report 

                                                 Agreed-Upon Procedures 

                                                        To Verify 

                                             Contract Personnel Qualifications 


                                          Zimmerman Associates, Incorporated 

                                         Contract Number PBGC01-CT-04-0727 

                                                  (FYs 2006 and 2007) 




                                                    TABLE OF CONTENTS


Independent Accountant’s Report....................................................................................................2


Executive Summary .........................................................................................................................3 


Background ......................................................................................................................................3 


Audit Results……………................................................................................................................4 


Finding No. 1- ZAI Officials Did Not Always Verify Contract Personnel 

Qualifications…………………………………………………………………………...................4 


PBGC’s Response To Finding No. 1……………. ..........................................................................6 


APPENDICES 


I. Scope, Objective and Methodology of the Engagement ..............................................................7 


II. PBGC’s Response ......................................................................................................................8 

                               Independent Accountant’s Report 

                                   Agreed-Upon Procedures 

                                          To Verify 

                               Contract Personnel Qualifications 


                            Zimmerman Associates, Incorporated 

                           Contract Number PBGC01-CT-04-0727 

                                    (FYs 2006 and 2007) 



To:    Rebecca Anne Batts
       Inspector General
       Pension Benefit Guaranty Corporation

The Office of Inspector General (OIG) of the Pension Benefit Guaranty Corporation (PBGC)
contracted with our firm to perform the procedures described on page 7, which were agreed to by
your office solely to assist you in evaluating whether Zimmerman Associates, Incorporated
(ZAI) processes were adequate to ensure that qualified personnel were assigned to PBGC
contract PBGC01-CT-04-0727 for fiscal years (FYs) ended September 30, 2006 and 2007. This
agreed-upon procedures engagement was performed in accordance with attestation standards
established by the American Institute of Certified Public Accountants and Government Auditing
Standards, 2007 revision, issued by the Comptroller General of the United States. The
sufficiency of these procedures is solely the responsibility of those parties specified in this
report. Consequently, we make no representation regarding the sufficiency of the procedures
described on page 7 either for the purpose for which this report has been requested or for any
other purpose.

We were not engaged to, and did not perform an examination, the objective of which would be
the expression of an opinion on the financial statements of ZAI. Accordingly, we do not express
such an opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

This report is intended solely for the information and use of PBGC’s Office of Inspector General
(OIG), PBGC management and ZAI.



Ollie Green & Co., CPAs
Certified Public Accountants

Louisville, Kentucky
January 23, 2009

                                               2

                                      Executive Summary


Ollie Green & Company, CPA’s (OG& C) was awarded a contract on September 24, 2008 to
determine whether ZAI had adequate processes in place to ensure that qualified personnel were
assigned to PBGC contract number PBGC01-CT-04-0727 for FYs ended September 30, 2006
and 2007. The contract between PBGC and ZAI is a Cost Plus Fixed Fee contract for ZAI to
provide qualified professional staff to manage and operate the Benefits Administration &
Payment Department (BAPD) Document Management Center (DMC).

We found that ZAI did not always verify that assigned personnel met experience requirements
specified in the PBGC contract because there is no contractual requirement to verify experience.
We found 21 instances out of the 47 employees sampled where the employee’s experience had
not been verified.

To ensure that PBGC is getting the experienced contractor employees that it is paying for, we
recommend that PBGC require ZAI to verify all of its employees’ experience prior to assigning
them to the contract.


                                          Background

The Pension Benefit Guaranty Corporation was established under Title IV of the Employee
Retirement Income Security Act of 1974 (ERISA), as amended, 29 U.S.C. §§ 1301-1461, ERISA
§§ 4001-4402, to insure the pension benefits of participants in certain defined benefit pension
plans. To carry out its mission, PBGC relies heavily on the services of contractors.

The Benefits Administration & Payment Department (BAPD) is responsible for the continued
distribution of benefits to participants when the plan terminates. The administration of
participant and plan documents requires BAPD to manage and maintain over 9,000,000 pages of
pension plan and participant information. BAPD has been converting paper documents to optical
images through the use of its Image Processing System.

To assist in carrying out its overall mission, PBGC entered into a Cost Plus Fixed Fee contract
with ZAI to provide qualified professional staff to manage and operate the BAPD’s Document
Management Center (DMC). Specific requirements include providing:

    •   Correspondence control (incoming mail) services;
    •   Document preparation services;
    •   Document scanning, index and verification services;
    •   Records management services;
    •   Data entry services;
    •   Intra-departmental support services;

                                                3

    • Courier services.

ZAI billed PBGC a total of $5,411,711 for FYs 2006 and 2007, approximately $2.5 million and
$2.9 million respectively. Contract number PBGC01-CT-04-0727 was awarded to ZAI effective
September 30, 2005 for a base period and four option periods. The contract will terminate on
September 30, 2009 unless an extension is granted by PBGC.

 
                                                                                                    
                                         Audit Results

ZAI Did Not Always Verify Contract Personnel Qualifications

ZAI did not always verify that assigned personnel met experience requirements specified in the
PBGC contract because there is no contractual requirement to verify experience. The contract
identified the following personnel positions in paragraphs H.7 and H.15 through H.16.8.

    •   Program Manager
    •   Operations Supervisor
    •   Task Leader
    •   Senior Computer Operator
    •   Junior Computer Operator
    •   Clerk
    •   Driver
    •   Information Technology (IT)Specialist

For each of these positions, the contract also specified certain required experience and other
professional qualifications. No educational requirements were specified. Paragraph H.8 of the
contract states that:

        The contractor is responsible for providing personnel under this contract who meet or
        exceed the minimum qualifications. All contractor personnel assigned to this contract
        will be subject to review by the Contracting Officer or his representative. Contract
        personnel found not to meet qualifications or performance standards shall be removed
        from performing under this contract. Dollars associated with personnel found not to meet
        the labor category qualifications will be disallowed.

In conducting our audit, we judgmentally selected a sample of 35 employees from a universe of
161. We included at least one employee from each position title invoiced to PBGC. We
examined the ZAI’s employee records to determine whether ZAI verified the experience of these
employees before placing them on the PBGC contract. As indicated in the table below, the
contractor only verified the experience requirement for 20 of the 35 employees selected in our
sample. ZAI relied on resume information without verification for the remaining 15 employees.




                                                4

                    Position      Number               Contract               ZAI
                     Title     Of Employees           Experience            Verified
                                 Sampled             Requirement           Experience
                                                                             Y/N/#


         1. Program Manager         3          10 Yrs-General Experience      Y-3
            (Key Employee)
                                                   8-Yrs-Specialized
                                                       Experience
         2. Task Leader             1                4-Yrs-General            Y-1
            (Key Employee)                             Experience
                                                   2-Yrs Specialized
                                                      Experienced
         3. Senior Computer         5                3-Yrs-General            Y-5
            Operator                                   Experience
                                                   2-Yrs Specialized
                                                       Experience
         4. Junior Computer        20                1-Yr-General            8-Y
            Operator                                   Experience            12-N
                                                 9-Months-Specialized
                                                      Experienced
         5. Clerk                   6              6-Months-General          Y-3
                                                       Experience            N-3
         Total Sample              35                                        Y-20
                                                                             N-15



Key employees were defined in paragraph H.7 of the contract as Program Manager, Operations
Manager and Task Leader. All other employees were classified as non-key. ZAI’s Human
Relations Director stated that they only verified experience for key personnel. She explained
that ZAI's policy was not to verify experience of staff positions.

Based on the results of our original sample, we elected to conduct additional procedures to verify
independently the work experience asserted by 15 employees (12 from the universe and 3 from
the original sample) billed on the PBGC contract. These 15 employees were key and non-key
employees. In this expanded sample, we found that 9 of the 15 employees selected had adequate
proof of verification of experience in their file. For the remaining 6, we contacted the
employees’ previous employers to attempt to verify the employees’ experience represented in
their resumes. Our contacts resulted in very limited information from the previous employers.
The employers we contacted would only verify that the individual was employed but would not
provide information on length of employment in specified positions. Accordingly, we were
unable to definitively verify that these employees met the experience requirements specified in
the contract.

Overall, we were unable to verify that 21 of the 47 employees tested met the experience
requirement specified by PBGC. Our inability to verify employment after assignment to the
PBGC contract points out the need to adequately verify and document employee qualifications
prior to assignment to the contract. The PBGC contract has specified experience qualifications
for each of the job categories. If the contractor does not verify all employees’ experience, not
just those key personnel, then the contractor has shifted the risk to PBGC that employees do not
meet the contractual requirements.




                                                5

We did not question costs associated with this finding since, through our additional procedure,
we could not definitely determine that any employees had not met the specified experience
requirements.


Recommendation:

We recommend that the PBGC Contracting Officer require ZAI officials to implement internal
controls and procedures to ensure that required experience is verified and documented in
personnel files for all employees prior to assigning personnel to PBGC contracts (PD-132).

PBGC’s Response

PBGC concurred in principle with the recommendation. As the period of performance for this
contract expires as of September 30, 2009, PBGC noted that implementation of internal controls
on this contract was a moot point. However, PBGC stated it would: (1) alert the contractor to the
issue for any future government work it may perform; and (2) insert a clause in its future
contracts, where personal qualifications are specified, establishing contractor’s responsibility to
independently verify employees education experience and its responsibility to maintain records
of its verification actions.

Auditor’s Evaluation:

We concur with PBGC’s response.




                                                6

                                                                                   Appendix I


                               Scope, Objective and Methodology

We have applied certain agreed-upon procedures solely to assist the OIG in determining whether
ZAI’s processes were adequate to ensure that qualified personnel are assigned to PBGC contract
PBGC01-CT-04-0727 for FYs ended September 30, 2006 and 2007. Ollie Green & Company,
CPA’s (OG& C) was awarded this contract on September 24, 2008. We initiated the planning
phase for this engagement on September 29, 2008 and completed all planning activities on
October 15, 2008. The field work phase was initiated on October 27, 2008 and was completed
on January 23, 2009.

The scope of our engagement covered fiscal years ended September 30, 2006 and 2007 for
contract number PBGC01-CT-04-0727. The objective of the engagement is to determine whether
ZAI’s processes were adequate to ensure that qualified personnel are assigned on PBGC
contracts. This agreed-upon procedure engagement was performed in accordance with
attestation standards established by the American Institute of Certified Public Accountants and
Government Auditing Standards, July 2007 revision, issued by the Comptroller General of the
United States.

In conducting our work, we:

     •	 Obtained and reviewed copies of contracts, amendments and invoices provided by
        PBGC-OIG officials for FYs 2006 and 2007;
     •	 Attended a planning meeting with PBGC-OIG officials in Washington, DC to discuss the
        objective, scope, methodology, timing and other pertinent audit concerns.

To meet our audit objectives, we identified all employees with billed charges to the contract for
FYs 2006 and 2007; compared contract employee positions and job descriptions to positions and
job descriptions specified in the PBGC contract; and selected a judgmental sample of employees
to be tested for required qualifications. During the field work phase, we reconciled sampled
employee employment applications to resumes; reconciled information on testimonial resumes to
contract qualifications specified in the contract; interviewed employees and compared their
responses to resume information and to required contract qualifications; called past employers to
verify experience on the resume and compared billed employees to their form W-2s. At the
conclusion of our field work, we conducted an exit conference to discuss all preliminary findings
and timing of the draft report.




                                                7

                                                                                               Appendix II
"Vf\
paGe              Pension Benefit Guaranty Corporation
                  1200 K Str~t. N.W.. Washington. D.C. 20005·4026

                                           MEMORANDUM
 July 23. 2009

 To:     Joseph Marchowsky
         Office of the Inspector General

 From: Arthur S. Block     ~f...."'1 (') ~
       AClingDim:tor      VJ~
       Procurement Department

 Subject: Response to Draft Report on Zimmennan Associates

 I welcome the opportunity to comment on the Office of Inspector General's subject report. Management
 sincerely appreciates the work of your office in overseeing this audit. We concur in principal with your
 report and otTer the following comments.

 The period of performance of PBOC's contract with ZIA (PO BCD l-CT..()4·0727) expires September 3D,
 2009. Requiring ZIA officials to implement internal controls and procedures to ensure the required
 experience is verified and documented is somewhat 8 moot poinl, however, we will alert the contractor to
 this issue in light of an)' furure government work they may perform.

 PO proposes to insert the following clause for all future conlracts where applicable, i.e. whenever
 perwnnel qualifications are specined in tenns of education andlor experience. This clause is designed to
 address OIG concerns with regard to verification and documental ion by the contrad'or of emplo)'ee
 educational and experience qualifications.

 Education and Experience Qualifications

 The Contractor is responsible for providing personnel under this contract who meet or exceed the
 minimum educational and/or experience qualifications in this contract. By assigning an employee to
 work under this contract, the contractor verifieS that the employee's educational and/or experience has
 been independently validated. A record of the independent validation of the employee's educational
 and/or training credentials shall be retained by the contractor for Government inspection for a pertod of
 three year aher final payment. Contractor personnel found by the Contracting Officer not to meet the
 minimum educationaVexperlence qualifications and/or performance standards shall be removed
 immediately from this contract upon request by the Contracting Officer. Further, price/cost of worlc
 performed by a person who lacks the requisite education and/or experience may be reduced at the
 discretion of the Contracting Officer.

 Again, I value the work of the DIG, and PliGC management stands ready        10   work with your office in
 fully addressing the issues that you have called to our attention.

 cc: Martin O. Boehm




                                                     8
If you want to report or discuss confidentially any instance 

 of misconduct, fraud, waste, abuse, or mismanagement, 

      please contact the Office of Inspector General. 




                       Telephone:

            The Inspector General’s HOTLINE

                    1-800-303-9737


  The deaf or hard of hearing, dial FRS (800) 877-8339

   and give the Hotline number to the relay operator.




                           Web:

       http://oig.pbgc.gov/investigation/details.html




                         Or Write:

          Pension Benefit Guaranty Corporation

               Office of Inspector General

                     PO Box 34177

             Washington, DC 20043-4177 

